11
APPENDIX
Appendix A
The Ruling of The Circuit Court of Dale County,
Alabama
(August 15, 2018)
Appendix B
The Certificate of Judgment by The Supreme Court of
Alabama
(December 13, 2019)
Appendix C
Appeal from The Circuit Court of Dale County,
Alabama
(December 17, 2018)

12

Appendix A
The Ruling of The Circuit Court of Dale County,
Alabama
(August 15, 2018)

DOCUMENT 367

^ELEfS'8
c^LED
: :26-CV-2OO7-OOO232.O0
~

CIRCUIT COURT OF
DALE COUNTY, ALABAMA ........
DELORES WOODHAM. CLERK .

IN THE CIRCUIT COURT OF DALE COUNTY, ALARAM A'
VAUGHN ROBERT L JR AKA
JUDSON VAUGHN,
)
Plaintiff,
')•

) Case No.:

V.
•

bray william

o,

CV-2007-000232.00

)
)

BRAY TERESA VAUGHN
WACHOVIA BANK NKA WELLS.
)
FARGO,
ALABAMA CREDIT LAND &
FARM LENDERS FKA FEDERAL)
ET AL,
Defendants.
I
ORDER
This cause coming on to be heard is submitted for a judgment on the
renewed Motion for Summary Judgment with all exhibits and attachments thereto
filed by the defendants, the response of the plaintiff, with all exhibits and
attachments thereto and all pleadings of record, the Complaint and First Amended
Complaint, asamended^ and Answer of the defendants, William 0. Bray and
Teresa Vaughn Bray to the Complaint, and First Amended Complaint, as amended,
briefs and argument of counsel for the defendants and briefs, pleadings, argument
and statements of the plaintiff who appeared and argued pro-se, and the Court
haying considered the same; the Court finds as follows:
Robert Vaughn adc/a Judson Vaughn is the plaintiff, and his sister and

DOCUMENT 367

brother-in-law, William 0. Bray are die defendants. The mother of the plaintiff and
the defendant, Teresa Bray is Verna Vaughn.
On April 17,2002, Verna Vaughn conveyed 10.73 acres by deed to Teresa
Vaughn Bray and her husband, William O. Bray by warranty deed and on May 24,
2002 con veyed the remaining of the 15 8 acres to Teresa Bray. The property is
known as “the Farm” and “Sycamore Hill”.
Both deeds were properly signed, sealed and witnessed, notarized and
delivered to Teresa Bray and William O. Bray after their, execution in 2002. The
Brays took possession of the property. The transaction was completed in the spring
of 2002.
In a Notice to Judson Vaughn dated June 3, 2002 (Defendant’s Exhibit G),
Teresa Bray notified Judson Vaughn and informed him that she owned the property
formerly owned by her mother, Verna Mathison Vaughn, and that if he expected to
live in the house, he would have to pay rent of S500.00 per month.
Also, by letter from Judson to Teresa dated June 23, 2003 (Defendant’s
Exhibit F); Judson acknowledged that on June 3, he had received a copy of the new
warranty deed, along with stipulation concerning rent and the use of Sycamore
Hill. In the letter, he offered to renounce any claim he may have to the property for
reimbursement of $35,000.00 for expenses in remodeling the house starting in
1987, and to refrain from taking any legal action to claim future legal right to the

DOCUMENT 367

property or house.
In this letter of June 23. 2003, the plaintiff acknowledged that he had the
right to go to court and fight for the property.
Also, according to the plaintiff’s statement and pleading, he and his wife
took Verna Vaughn to attorney Wade Baxley’s office in Dothan, on November 5,
2002 for the purpose of restoring the joint Power of Attorney to Judson and to file
suit against Mr. & Mrs. Bray to set aside the warranty deed. After conferring,
attorney Wade Baxley and the plaintiff concluded Verna Vaughn did not understand
what they were asking her to sign and that concluded the meeting and Mrs. Vaughn
had not signed any document.
At that time Mr. Baxley did advise the plaintiff that the Statute of
Limitations may be running against their claims.
Also, on January 8, 2004, Mrs. Bray and her husband executed a Real Estate
and Security Agreement with respect to a substantial part of the property in favor
of Alabama Ag to secure a debt. The mortgage was recorded February 20, 2004.
On November 26, 2006 Mrs. Bray conveyed approximately 6 acres of the property
to Wendy Ward. In 2012 the plaintiff entered into an agreement with Alabama Ag
that the mortgage shall remain valid, binding and enforceable with respect to the
property described thereon regardless of the outcome of the litigation.
Verna Mathison Vaughn, the mother, died October 29, 2007. The plaintiff’s

DOCUMENT 367

mother said was made in 2007, Again the mother is not here to admit or deny
because of the delay in filing the suit for years.
The court finds that according to the defendant he purposefully chose not to
take legal action because of the involvemen t of the mother. The delay in filing a
legal action cause the defendants to be illegally and unduly prejudiced in losing the
primary witness, the mother, and other knowledgeable and corroborating witnesses.
The Court further finds there was no confidential relationship between
Judson Vaughn and his sister and brother-in-law, Teresa Bray and William O. Bray.
The Court finds that defendants did nothing to influence the plaintiff not to proceed
with legal action. There was no undue influence by the defendants that kept the
plaintiff from proceeding with legal action to declare the mother incompetent and
to set aside the deeds.
The Doctrine of Laches applies to facts of the case Equal Employment
Opportunity Commission v. Dresser Industries, Inc., 668 F2d 1199 (11th Cir. 1982);
Hanks v. Crane. 979 So.2d 801 (Ala.Civ.App. 2007); Meeks v. Meeks, 251 Ala.
435, 37 So2d 914 (1948); City of Huntsville v. Stove House 5, Inc.. 3 So.3d 186,
191 (2008); Oak Grove Res., LLC v. White, 86 So3d 963 (2011).
The delay in this case was purposeful and unreasonable and not excusable
and the delay for 5 years to file the legal action after the mother’s death caused the
defendants to be illegally and unduly prejudiced in losing the primary witness, the

DOCUMENT 367

suit to set aside the deed was filed November 21, 2007. The plaintiff did nothing
to legally contest the transaction until 5 years after the deeds were executed and
after the mother had died.
The Court finds that the plaintiff failed to do what should or could have been
done to assert a claim within a reasonable length of time after he acquired
knowledge of the transactions. Based on the plaintiffs statement and pleadings, he
knew he could file a legal action, but he allowed time to lapse.
The plaintiff waited until the mother died to file suit and begin an action to
set aside the deeds on the claim that the defendants exercised undue influence and
coercion to procure ftie deeds from Verna Vaughn, the mother.
ff the suit was filed While ftie motherlit,ed^ the mother could have testified
in court as to the claims made by the plaintiff The only one, as a witness, who
could have explained her wishes and desires and intentions associated with the
subject transactions first-hand.
As to Sherry Stower’s official notes and the ombudsman, Grey Price’s
Official notes Of 2003, filed With the plaintiff’s response to the defendants’ Motion
for Summary Judgment, concerning emotional abuse, threats, verbal abuse and
mistreatment of mother by the defendant’s daughter and son-in-law, the primary
witness, the parties mother is now' dead and the daughter is prevented from calling
the mother to refute the allegations in the report. The report of what they say die

1X)eUfVfEM''367

mother, and other knowledgeable and coifobofating witnesses.
Hie: delay was purposeful to avoid confronting the mother, the primary and
R

most important witness who conveyed the land in question. And a result of the
delay, the defendants were unduly prejudiced in that material witnesses became
unavailable and evidence lost.
THEREEDREjat Is Ordered apd Adjudged as follows:
1. Motion for Summary Judgment granted pursuant to Rule 56 of the Alabama
Rules of Civil Procedure that a result of the Doctrine of Laches there is no
genuine issue as to any material fact and that the defendants are entitled to a
judgment as a matter of law.
■’~2; Judgment for the defendants on Count I regarding the deed of April 17,
2002, and the deed should not be set aside and shall remain valid and in full
force and effect.
3: Judgment for the defendants on CountII regarding the deed of May 24
2002, and the deed shall not be set aside and shall remain valid and in full
force and effect.
4. Judgment for the defendants of all other counts which have not been
previously dismissed.
5. This cause is hereby dismissed.

DOCUMENT 367

■#

BONE this 15th day of August, 2018.
Is/ P. B. MCLAUCHL1N
CIRCUIT JUDGE

19

Appendix B
The Certificate of Judgment by the Supreme
Court of Alabama
(December 13, 2019)

IN THE SUPREME COURT OF ALABAMA

December 13, 2019
1171207
Robert L. Vaughn Jr. aka Judson Vaughn v. William O. Bray, et al. (Appeal from
Dale Circuit Court: CV-07-232).

CERTIFICATE OF JUDGMENT
WHEREAS^ the ruling Ort the application for rehearing filed in this case and indicated
beibvfWUS entered ifr this cause on December 13, 2019:
Application Overruled. No Opinion. Stewart, J. - Parker, C.J., and Bolin, Wise, and Sellers,
JJ., concur.
WHEREAS, the appeal in the above referenced cause has been duly submitted and
considered by the Supreme Court of Alabama and the judgment indicated below was entered
in this cause on August 9, 2019:
Affirmed. No Opinion. Stewart, J. - Parker, C.J., and Bolin, Wise, and Sellers, JJ., concur.
NOW, THEREFORE, pursuant to Buie 41, Ala. R. App. P.,1T IS HEREBY ORDERED
that this Court's judgment in this cause is certified on this date. IT IS FURTHER ORDERED
that, unless otherwise ordered by this Court or agreed upon by the parties, the costs of this
cause are hereby taxed as provided by Rule 35, Ala. R. App. P.
1, Julia J. Weller, as Clerk of the Supreme Court of Alabama, do hereby certifythattheforegoing is
a full, trueandcorrectcopy of theinstrument(s) herewith Set outas same appeals) of record in said
Court.
Witness my hand this 13th day of December, 2019.

hk

...

Clerk, Supreme Court of Alabama

Additional material
from this filing is
available in the
Clerk's Office.

